APPENDIX A
United States v. Martinez-Carrillo,
No. 20-50377 and No. 20-50379
(5th Cir. Sept. 15, 2020)
(per curiam)

Case: 20-50377

Document: 00515564913

Page: 1

Date Filed: 09/15/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
No. 20-50377
Summary Calendar

September 15, 2020
Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Hector Miguel Martinez-Carrillo, also known as Hector
Migue Martinez-Carrillo, also known as Hector Miguel
Martinez-C, also known as Hector Miguel CarrilloMartinez,
Defendant—Appellant,
consolidated with
_____________
No. 20-50379
Summary Calendar
_____________
United States of America,
Plaintiff—Appellee,
versus
Hector Miguel Martinez-Carrillo,
Defendant—Appellant.

Case: 20-50377

Document: 00515564913

Page: 2

Date Filed: 09/15/2020

No. 20-50377
c/w No. 20-50379

Appeals from the United States District Court
for the Western District of Texas
USDC No. 4:19-CR-900-1
USDC No. 4:20-CR-73-1
Before Davis, Stewart, and Dennis, Circuit Judges.
Per Curiam:*
Hector Miguel Martinez-Carrillo appeals his sentence of 16 months
and three years of supervised release, which the district court imposed
following his guilty plea conviction for illegal reentry, in violation of 8 U.S.C.
§ 1326. He also appeals from the judgment revoking his supervised release.
He argues that the enhancement of his sentence based on his prior conviction
pursuant to § 1326(b)(1), which increased the statutory maximum terms of
imprisonment and supervised release, is unconstitutional because his prior
conviction is treated as a sentencing factor rather than an element of the
offense that must be alleged in the indictment and found by a jury beyond a
reasonable doubt. He concedes that the issue is foreclosed by AlmendarezTorres v. United States, 523 U.S. 224 (1998), but he seeks to preserve the issue
for further review.

The Government moves for summary affirmance,

asserting that Martinez-Carrillo’s argument is foreclosed.
The parties are correct that Martinez-Carrillo’s assertion is foreclosed
by Almendarez-Torres. See United States v. Wallace, 759 F.3d 486, 497 (5th
Cir. 2014); United States v. Rojas-Luna, 522 F.3d 502, 505-06 (5th Cir. 2008).
Further, Martinez-Carrillo has abandoned a challenge to the revocation of his
supervised release by failing to brief an argument as to the revocation. See

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

2

Case: 20-50377

Document: 00515564913

Page: 3

Date Filed: 09/15/2020

No. 20-50377
c/w No. 20-50379

United States v. Reagan, 596 F.3d 251, 254-55 (5th Cir. 2010). Accordingly,
summary affirmance is GRANTED, see Groendyke Transp., Inc. v. Davis,
406 F.2d 1158, 1162 (5th Cir. 1969), the Government’s alternative motion for
an extension of time to file a brief is DENIED, and the judgments of the
district court are AFFIRMED.

3

APPENDIX B
United States v. Martinez-Carrillo,
Indictment, P-19-CR-900
(W.D. Tex. Dec. 12, 2019)

Case 4:19-cr-00900-DC Document 8 Filed 12/12/19 Page 1 of 1

20-50377.13

APPENDIX C
8 U.S.C. § 1326

§ 1326. Reentry of removed aliens, 8 USCA § 1326

KeyC te Ye ow F ag Negat ve Treatment
Proposed Leg s at on

United States Code Annotated
Title 8. Aliens and Nationality (Refs & Annos)
Chapter 12. Immigration and Nationality (Refs & Annos)
Subchapter II. Immigration
Part VIII. General Penalty Provisions
8 U.S.C.A. § 1326
§ 1326. Reentry of removed aliens
Effective: September 30, 1996
Currentness
(a) In general
Subject to subsection (b), any alien who--

(1) has been denied admission, excluded, deported, or removed or has departed the United States while an order of
exclusion, deportation, or removal is outstanding, and thereafter

(2) enters, attempts to enter, or is at any time found in, the United States, unless (A) prior to his reembarkation at
a place outside the United States or his application for admission from foreign contiguous territory, the Attorney
General has expressly consented to such alien's reapplying for admission; or (B) with respect to an alien previously
denied admission and removed, unless such alien shall establish that he was not required to obtain such advance
consent under this chapter or any prior Act,
shall be fined under Title 18, or imprisoned not more than 2 years, or both.

(b) Criminal penalties for reentry of certain removed aliens
Notwithstanding subsection (a), in the case of any alien described in such subsection--

(1) whose removal was subsequent to a conviction for commission of three or more misdemeanors involving drugs,
crimes against the person, or both, or a felony (other than an aggravated felony), such alien shall be fined under Title
18, imprisoned not more than 10 years, or both;

(2) whose removal was subsequent to a conviction for commission of an aggravated felony, such alien shall be fined
under such title, imprisoned not more than 20 years, or both;

(3) who has been excluded from the United States pursuant to section 1225(c) of this title because the alien was
excludable under section 1182(a)(3)(B) of this title or who has been removed from the United States pursuant to the

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 1326. Reentry of removed aliens, 8 USCA § 1326

provisions of subchapter V, and who thereafter, without the permission of the Attorney General, enters the United
States, or attempts to do so, shall be fined under Title 18 and imprisoned for a period of 10 years, which sentence shall
not run concurrently with any other sentence. or

(4) who was removed from the United States pursuant to section 1231(a)(4)(B) of this title who thereafter, without
the permission of the Attorney General, enters, attempts to enter, or is at any time found in, the United States (unless
the Attorney General has expressly consented to such alien's reentry) shall be fined under Title 18, imprisoned for not
more than 10 years, or both.
For the purposes of this subsection, the term “removal” includes any agreement in which an alien stipulates to removal
during (or not during) a criminal trial under either Federal or State law.

(c) Reentry of alien deported prior to completion of term of imprisonment
Any alien deported pursuant to section 1252(h)(2) 2 of this title who enters, attempts to enter, or is at any time found in,
the United States (unless the Attorney General has expressly consented to such alien's reentry) shall be incarcerated for
the remainder of the sentence of imprisonment which was pending at the time of deportation without any reduction for
parole or supervised release. Such alien shall be subject to such other penalties relating to the reentry of deported aliens
as may be available under this section or any other provision of law.

(d) Limitation on collateral attack on underlying deportation order
In a criminal proceeding under this section, an alien may not challenge the validity of the deportation order described
in subsection (a)(1) or subsection (b) unless the alien demonstrates that--

(1) the alien exhausted any administrative remedies that may have been available to seek relief against the order;

(2) the deportation proceedings at which the order was issued improperly deprived the alien of the opportunity for
judicial review; and

(3) the entry of the order was fundamentally unfair.

CREDIT(S)
(June 27, 1952, c. 477, Title II, ch. 8, § 276, 66 Stat. 229; Pub.L. 100-690, Title VII, § 7345(a), Nov. 18, 1988, 102
Stat. 4471; Pub.L. 101-649, Title V, § 543(b)(3), Nov. 29, 1990, 104 Stat. 5059; Pub.L. 103-322, Title XIII, § 130001(b),
Sept. 13, 1994, 108 Stat. 2023; Pub.L. 104-132, Title IV, §§ 401(c), 438(b), 441(a), Apr. 24, 1996, 110 Stat. 1267, 1276,
1279; Pub.L. 104-208, Div. C, Title III, §§ 305(b), 308(d)(4)(J), (e)(1)(K), (14)(A), 324(a), (b), Sept. 30, 1996, 110 Stat.
3009-606, 3009-618 to 3009-620, 3009-629.)

Notes of Decisions (1300)

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 1326. Reentry of removed aliens, 8 USCA § 1326

Footnotes
So in original. The period probably should be a semicolon.
1
So in original. Section 1252 of this title, was amended by Pub.L. 104 208, Div. C, Title III, § 306(a)(2), Sept. 30, 1996, 110
2
Stat. 3009 607, and as so amended, does not contain a subsec. (h); for provisions similar to those formerly contained in section
1252(h)(2) of this title, see 8 U.S.C.A. § 1231(a)(4).

8 U.S.C.A. § 1326, 8 USCA § 1326
Current through P.L. 115-173. Also includes P.L. 115-176 to 115-178. Title 26 current through 115-182.
End of Document

© 20 8 Thomson Reuters. No c a m to or g na U.S. Government Works.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

3

